                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                 , OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 1-10010004                                                                    Page 1 of 1



         Thi; investigation was initiated based on information that a university 1 might have improperly
         used award 2 funds after the departure of a PI. 3

         OIG found that the university did not use funds for award expenses incurred after the PI's ,
         departure, The investigation did not substantiate the misuse of NSF funds. Accordingly, this
         investigation is closed.




         2




NSF OIG Form 2 (11/02)
